No. 20-1453
In the

Supreme Court of the United States
CAL CARTAGE TRANSPORTATION EXPRESS, LLC, et al.,
v.

Petitioners,

THE PEOPLE OF THE STATE OF CALIFORNIA, et al.,
Respondents.
On Petition for Writ of Certiorari To The
California Court of Appeal
Brief Amicus Curiae of Western States Trucking
Association as Amicus Curiae In Support of
Petitioner
PATRICK J. WHALEN
Counsel of Record for Amicus Curiae
Ellison, Whalen and Blackburn, Attorneys at Law
1201 K Street, Ste. 1960
Sacramento, CA 95814
(916) 448-2187
attorneys@ellisonlawoffices.com

TABLE OF CONTENTS
INTEREST OF AMICUS CURIAE .................................................... 1
SUMMARY OF ARGUMENT ............................................................. 3
ARGUMENT ............................................................................................ 4
I. CALIFORNIA’S ABC TEST AB 5 WILL CONVERT ALL
INDEPENDENT CONTRACTOR TRUCKING COMPANIES
INTO EMPLOYEES ............................................................................... 4
A. Brief Overview of WSTA Members and the Trucking
Services They Provide ................................................................... 4
B. The ABC Test AB 5 Makes It Illegal to Subcontract
with Other Trucking Companies as Independent
Contractors ......................................................................................... 8
II. THE ENFORCEMENT OF CALIFORNIA’S ABC TEST
WOULD CAUSE IRREPARABLE HARM TO THE
TRUCKING INDUSTRY ....................................................................... 9
III. THE BUSINESS-TO-BUSINESS EXCEPTION IN
CALIFORNIA LAW OFFERS NO RELIEF TO THE
TRUCKING INDUSTRY .................................................................... 10
IV. CALIFORNIA’S ABC TEST IS PRECISELY THE TYPE OF
LAW THAT CONGRESS INTENDED TO BE PREEMPTED
BY FAAAA ............................................................................................. 12
CONCLUSION ...................................................................................... 17

i

TABLE OF AUTHORITIES
Cases
Am. Trucking Ass'ns v. City of Los Angeles, 660 F.3d 384,
395–96 (9th Cir.2011) ............................................................... 13
California v. Uber Techs., Inc., No. CGC20584402 (Cal.
Super. Ct. May 5, 2020) .............................................................. 10
Independent Towers of Washington v. Washington, 350
F.3d 925, 930 (9th Cir.2003) ................................................... 13
People v. Superior Court, 57 Cal.App.5th 619, 634 (2020)
........................................................................................................10, 12
Statutes
49 U.S.C. § 13102 ................................................................................. 2
49 U.S.C. § 14501(c)(1) ............................................................. 2, 13
California Labor Code section 2775 ...................................... 3, 9
California Labor Code section 2776 ........................................ 11
California Labor Code section 2786 ........................................ 10
Other Authorities
John Husing, Ph.D., Owner Operator Driver Compensation
(2015) ................................................................................................... 7
Peter Tran, The Misclassification of Employees and
California's Latest Confusion Regarding Who Is an
ii

Employee or an Independent Contractor, 56 Santa Clara
L. Rev. 677, 701 (2016) ................................................................. 8

iii

INTEREST OF AMICUS CURIAE1
The Western States Trucking Association
(“WSTA”) is a nonprofit trade association incorporated
in 1941 that represents nearly 1,000 construction
industry related trucking companies, and an additional
5,000 affiliated member motor carriers engaged in
multiple modes of trucking from construction-related to
general freight operations. Our diversified group of
member motor carriers operate in intrastate commerce,
interstate commerce, and foreign commerce and operate
many different types and classes of commercial motor
vehicles, including dump trucks, concrete pumpers and
mixers, water trucks, port and border dray trucks, heavyhaul trucks, and class 8 over-the-road tractors. Member
companies range in size from one-truck owner-operators
to fleets with over 350 trucks. The business of WSTA
members constitutes over 75% of the hauling of dirt,
rock, sand, and gravel operations in California and other
western states.
The mission of WSTA is to advance the
professional interests of construction trucking
companies that are based in, and/or perform work in
California. WSTA advocates on behalf of its members, all
of whom have a strong interest in regulations that affect
the transportation industry.
All parties received timely notice of intent to file this brief at
least 10 days in advance of the brief’s due date. Blanket consent
letters are on file with the clerk. Pursuant to Rule 37.6, amicus
affirms that no counsel for a party authored this brief in whole or in
part and that no person other than amicus and its counsel made a
monetary contribution to its preparation or submission.
1

1

WSTA members generally are exempt from state
and local regulation pursuant to 49 U.S.C. § 14501(c)(1),
also known as the Federal Aviation Administration
Authorization Act of 1994 (the FAAAA). WSTA has an
interest in ensuring that its members can continue doing
business without having to navigate a patchwork of state
and local regulation which Congress saw fit to preempt.
Materials hauled by WSTA members include dirt,
sand, rock, gravel, asphalt and heavy equipment. WSTA
members typically transport construction material from
aggregate plants, asphalt and cement plants to
construction sites. Dirt is primarily hauled from a barrow
or construction site to another construction site.
WSTA’s member employers provide work for
approximately 5,000 drivers, mechanics, support
personnel and managers. Approximately 40% of WSTA’s
members are sole proprietors – small one-truck
independent contractor owner-operators motor carriers.
In addition to dump truck operators, WSTA also
represent a large segment of the construction industry
that hauls oversized and overweight off-road vehicles
and materials, plus a specialized segment that operates
pneumatic bulk trucks, water trucks and flatbed
construction trucks within this state. All operators of
such trucks are motor carriers, and the vast majority of
WSTA members are motor carriers as that term is
defined in 49 U.S.C. § 13102.
WSTA and its members are directly impacted by
the decision of the California Court of Appeal in this case
because the decision will operate to reclassify thousands
of independent businesses as employees of the
companies they currently do business with.
California’s enactment of an “ABC” test for
determining worker classification will force all of
WSTA’s members to radically change their business
2

models by forcing independent contractor truckers to be
treated as employees. Some fortunate companies that
survive will increase their existing staff of employee
drivers, and will increase their prices to make up for the
increased expenses. Other companies will be forced to
dramatically reduce the services they provide, and the
routes they service. For many small owner-operators,
the result will be that they will no longer be able to work
as independent contractors by marketing their trucks
and their skills as drivers, because the employment
mandate will be cost-prohibitive. As a result, many will
be forced to close their businesses and leave the
industry. WSTA urges this court to grant the petition to
resolve an important question of law that has generated
numerous conflicting decisions in the lower courts.

SUMMARY OF ARGUMENT
WSTA is filing this amicus brief to illustrate the
particular impacts of California’s recently-enacted ABC
test on one significant segment of the trucking industry in
California, and to amplify certain points that are
particularly relevant to WSTA members.
Specifically, this brief’s primary focus is to help
inform this Court on the way trucking services are
delivered, by fleets of employee drivers as well as
subcontracted trucking companies, in order to
demonstrate why the ABC test codified in California Labor
Code section 2775 et seq. mandates an employment
relationship between trucking companies. Second, the
brief explains the catastrophic impact on the trucking
industry if the law is enforced. Finally, the brief debunks
the notion that the business-to-business exception in
3

California’s law has any applicability to the trucking
industry.

ARGUMENT
I. CALIFORNIA’S ABC TEST AB 5 WILL CONVERT ALL
INDEPENDENT CONTRACTOR TRUCKING COMPANIES
INTO EMPLOYEES
A. Brief Overview of WSTA Members and the Trucking
Services They Provide
WSTA members engage in a wide variety of
trucking services, including both inter- and intrastate
hauling. Many members are in the construction trucking
industry, although WSTA membership has grown to
include members from other types of trucking as well.
Member companies range in size from large fleets of 300
trucks and employee drivers, to small, one-truck owneroperators, with companies of all sizes in between. Our
members generally work on construction projects hauling
material and/or equipment to and from the worksite.
However, they also engage in traditional freight and cargo
transport as well.
For a trucking company, business volume tends to
fluctuate wildly.
Some work, especially in the
construction industry, is seasonal. Volume can also
fluctuate based upon changing consumer demand, new
construction developments in particular geographic
areas, overseas shipping levels, and even the general
economic conditions.
For established regular routes that do not vary
with the season, or the weather, companies can easily staff
4

up with employee drivers to service those routes.
However, much of trucking involves fluctuating demand
for trucking services. It is simply not commercially
practicable for a company to rely entirely on employee
drivers, because customers will occasionally need
services that outstrip the capacity of a trucking company’s
fleet of trucks and staff of drivers. In the modern ondemand economy, when a trucking company wins a
contract for trucking services that exceeds its available
supply of trucks and employee drivers, there is no time to
go out and purchase new trucks and hire and train new
drivers. The customers want – demand – the delivery of
the cargo to be completed immediately. Indeed, one of the
keys to winning bids on trucking services is the ability of
the trucking company to reliably and quickly complete the
job.
In addition to the critical ability to have a rapid
response time, trucking companies do not have the capital
or resources to rapidly increase and decrease their fleet
of trucks and employee drivers as their volume ebbs and
flows. As to the truck, our members regularly spend
anywhere from $150,000 to $300,000 on a single truck,
depending on how the truck is equipped. The only way it
is commercially viable to invest that much money on a
truck is to guarantee that the truck will be transporting
goods every day, because if the truck is not moving, the
company is losing money on that capital investment. But
obviously, if a company only needs an excess of trucks for
a single temporary job, it would go out of business if it
purchased enough trucks to service that one job and then
parked those trucks after the job was completed, simply
because it would not be earning any revenue to service
the debt on those newly-purchased trucks.
The same is true for employee drivers. Drivers
need to be hired, trained, sent to a medical screening,
5

enrolled in a drug and alcohol testing program, and then
educated on the employer’s particular routes and
operational policies. It can take days or weeks from the
hiring of an employee driver to the point in time they are
ready to actually haul a load for their employing trucking
company.
Because of these realities inherent in the business
of trucking, virtually all of commercial trucking relies on
“brokering” to one degree or another. “Brokering” is
when a trucking company has obtained work from a
customer and is giving some or all of that work to other
trucking companies via subcontracting agreements.
Trucking companies will subcontract with other trucking
companies when their volume exceeds their own internal
fleet/employee resources because it is a more
commercially practical method of responding to
fluctuations in business volume. These subcontracting
companies may be other large or mid-sized fleets that
have excess capacity, or they may be individual owneroperators who own their own truck and trailer and
routinely hire themselves out to whichever larger
trucking company needs extra capacity on a temporary or
per-job basis. The trucking company may complete a job
for a customer using only its own fleet of trucks and
employee drivers, or it may use a mixture of its own
fleet/employees combined with other subcontracted
trucking companies to supplement its workforce, or it
may subcontract the entire job if its own workforce is
entirely occupied with work for other customers.
When this subcontracting occurs, it is common in
the trucking industry to charge a brokering fee – typically
5% to 8%. Thus, if a customer for a particular hauling job
is paying the trucking company $100/load, the trucking
company may broker some or all of that job to other
trucking companies, paying them $95 per load. Often, the
6

subcontracting companies are companies that were the
losing bidders on the contract in question, so they are
happy to get at least some of the work.
It is common for Company A to broker work to
Company B one day, and then on another day, Company B
will broker work to Company A. Through these
subcontracting transactions, trucking companies are able
to bid on multiple jobs, even if the sum total of all the jobs
will exceed their in-house supply of trucks and drivers,
because they can usually broker the excess work to others
in the trucking industry.
Indeed, smaller owneroperators thrive on this practice. One-truck owneroperators, and to a certain extent small and medium
trucking companies, do not always have the skills,
experience, or relationships to successfully bid and win
large contracts for trucking services. They simply don’t
have the resources to pay for the staff and overhead
necessary to go out and bid jobs. Instead, they benefit
from the work that larger companies do in winning the
contracts, because they will often be called upon to handle
the overflow work that exceeds the capacity of the
winning bidder trucking company.
Studies have demonstrated that self-employed
independent owner-operators running their own
businesses do quite well financially. In fact, the vast
majority of independent owner-operators make more
money than their counterparts employed as company
drivers, even accounting for union wages. Median income
for independent owner-operators is, on average,
approximately 40% higher than the median income for
employee drivers. See, e.g., John Husing, Ph.D., Owner
Operator Driver Compensation (2015). It is also well
known that many workers wish to be independent
contractors
for
specific
non-employment
benefits. Research shows that less than one in ten
7

independent contractors would prefer a more “regular”
nine-to-five type of work arrangement. See, e.g., Peter
Tran, The Misclassification of Employees and California's
Latest Confusion Regarding Who Is an Employee or an
Independent Contractor, 56 Santa Clara L. Rev. 677, 701
(2016).
Because of the manner in which trucking services
are bid, won, and subcontracted, it is an undeniable fact
that all of the trucking companies – whether large fleets
or small one-truck businesses – are all engaged in the
same “usual course of business” when they subcontract
with each other. This factual reality is critical because the
“B” prong of the ABC test states provides that the worker
must perform work that is outside the usual course of the
hiring entity’s business.
B. The ABC Test AB 5 Makes It Illegal to Subcontract
with Other Trucking Companies as Independent
Contractors
The California Legislature has codified the ABC test
announced in Dynamex Operations West, Inc. v. Superior
Court, 4 Cal. 5th 903 (2018) as follows:
Under this test, a worker is properly
considered an independent contractor to
whom a wage order does not apply only if
the hiring entity establishes: (A) that the
worker is free from the control and
direction of the hirer in connection with the
performance of the work, both under the
contract for the performance of such work
and in fact; (B) that the worker performs
work that is outside the usual course of the
hiring entity’s business; and (C) that the
worker is customarily engaged in an
8

independently
established
trade,
occupation, or business of the same nature
as the work performed for the hiring entity.
Dynamex, supra, 4 Cal.4th at 916-917. The new ABC test
announced in Dynamex mandates that the “hiring entity”
must prevail on all three prongs, to show that the
“worker” is an independent contractor. Id. at 955. Failing
to prevail on even one prong means that the “worker” will
be considered an employee, even though the “worker” is
an independent business. This test is now codified at
California Labor Code section 2775, et seq.
As discussed earlier, in the trucking business, both
the “hiring entity” and the “worker” are invariably both
independent trucking companies, and thus, a defendant in
any action would almost certainly fail the B-prong of the
test, as both are in the same business.
Thus, under the California’s ABC test, independent
companies will be deemed to be the employees of one
another, rather than the independent contractors they
truly are. For these reasons it is plain that the trial court
below was correct that the law makes it impossible for a
trucking company to contract with a motor carrier as an
independent contractor. For this reason, California’s ABC
test creates direct impacts on prices, routes and services
of motor carriers and is therefore preempted by federal
law.
II. THE ENFORCEMENT OF CALIFORNIA’S ABC TEST
WOULD CAUSE IRREPARABLE HARM TO THE
TRUCKING INDUSTRY
The possibility that any WSTA member trucking
company could be subject to a misclassification suit by
9

any one (or all) of the various trucking companies with
whom it subcontracts is an intolerable risk, because the
ABC test makes it a virtual certainty that the defendant
will lose any such action brought against it. In California,
most of the myriad wage and hour claims and other Labor
Code violations have statutes of limitations of three to
four years, which means the “tail” of liability for trucking
companies is enormous. For an average-sized company,
the potential liability could easily exceed tens of millions
of dollars. This exposure far exceeds the risks that a
trucking business can manage.
Even worse than the threat of private civil
litigation is the fact that California law expressly allows
enforcement by public agencies. New Labor Code section
2786 expressly authorizes the Attorney General and city
attorneys of certain large cities to prosecute claims
against employers for alleged misclassification. The State
of California and several large city attorneys recently used
this new grant of prosecutorial authority to file suit
against Uber and Lyft, alleging they violated the ABC test
by misclassifying drivers as independent contractors.
California v. Uber Techs., Inc., No. CGC20584402 (Cal.
Super. Ct. May 5, 2020). This is a precursor to the
catastrophic effect that California’s law could have on the
trucking industry if it is not found to be preempted.
III. THE BUSINESS-TO-BUSINESS EXCEPTION IN
CALIFORNIA LAW OFFERS NO RELIEF TO THE
TRUCKING INDUSTRY
In the Court below, the State of California argued
that motor carriers can avail themselves of the business
to business exception in the law. See People v. Superior
Court, 57 Cal.App.5th 619, 634 (2020). That exception is
codified at California Labor Code section 2776. However,
10

this exception is entirely untethered to the reality of the
trucking industry described above, and the argument
must be rejected.
In fact, the 12 elements that must be met to avail
oneself of the business-to-business exception are
extensive and detailed. See California Labor Code section
2776, subd. (a)(1)-(12). While it would be difficult or
impossible for most trucking businesses to meet many of
the 12 criteria – let alone all of them – there is only one
that need be discussed for present purposes, as it makes
it impossible for any trucking company to fit within the
exception. Subdivision (a)(2), the second of the 12
elements, sets forth the following requirement: “The
business service provider is providing services directly to
the contracting business rather than to customers of the
contracting business.”
Trucking companies, by definition, carry loads for
their customers. As set forth above, when subcontracting
occurs in the trucking industry, the subcontracting
trucking company is, by definition, providing a service to
the customers of the original trucking company. Thus,
there is no way for a trucking company to credibly argue
that their subcontractor was providing services to the
trucking company as opposed to the trucking company’s
end customer. A simple example illustrates the point.
Assume a trucking company won a contract to haul fifty
loads of material for a customer at a given price on a
certain date. The trucking company opts to use its own
fleet of 25 trucks and employee drivers for half of the
loads, and subcontracts out the other half of the work to
several different trucking companies. If one or all of those
subcontracting companies sued for misclassification, the
trucking company defendant would have to argue that
while its own employee drivers were clearly providing
services to the customer, the subcontracted trucks were
11

providing services to the trucking company, even though
all the trucks carried identical loads of cargo and went to
exactly the same place on the same date. Such an
argument would be patently unavailing.
Thus, subdivision (a)(2) is similar to the B prong of
the ABC test in that it is impossible for trucking companies
to satisfy. The court below dismissed this concern by
ignoring the statutory requirement that the services be
provided “directly to the contracting business rather than
to customers of the contracting business.” Instead, the
court below simply concluded without analysis that a
trucking company could contract with another business
entity, direct their actions, and pay them. See People v.
Superior Court, supra, 57 Cal.App.5th at p. 634. But as the
example above illustrates, factors like direction and
control, or source of payment, do not figure in to
subdivision (a)(2). That focuses solely on to whom the
services are being provided, and it is undeniably the
customer that is receiving the service, whether the service
is performed by an employee driver or an independent
contractor trucking company. Because there is no way to
satisfy either the B prong of the ABC test, or the second
prong of the business-to-business exception, California
law is essentially mandate that all relationships in the
trucking industry be that of employer-employee rather
than independent subcontractor.

IV. CALIFORNIA’S ABC TEST IS PRECISELY THE TYPE
OF LAW THAT CONGRESS INTENDED TO BE
PREEMPTED BY FAAAA
Approximately 20% of WSTA members operate in
locations on or near the California border with another
state. They regularly cross state lines to engage in
12

interstate trucking of all types, sometimes crossing the
border multiple times per day doing several short-haul
runs for a customer. This practical real-world example
highlights why California’s ABC test is exactly the type of
law that is subject to preemption by the FAAAA,2 as it
impermissibly impacts the prices, routes and services that
such motor carriers can provide.
The relevant provision of the FAAAA provides:
(1) General Rule. Except as provided in
paragraphs (2) and (3), a State [or] political
subdivision of a State ... may not enact or
enforce a law, regulation, or other provision
having the force and effect of law related to
a price, route, or service of any motor
carrier ... with respect to the transportation
of property.
49 U.S.C. § 14501(c)(1). The phrase “related to” in this
general preemption provision is “interpreted quite
broadly.” Independent Towers of Washington v.
Washington, 350 F.3d 925, 930 (9th Cir.2003). The
principal purpose of the FAAAA was “to prevent States
from undermining federal deregulation of interstate
trucking” through a “patchwork” of state regulations. Am.
Trucking Ass'ns v. City of Los Angeles, 660 F.3d 384, 395–
96 (9th Cir.2011). Yet AB 5 creates the exact type of
patchwork that will severely restrict the free flow of
commerce between states.
There are many WSTA member companies located
in places like Ehrenberg Arizona (just across the border
Federal Aviation Administration Authorization Act of
1994, codified at 49 U.S.C. § 14501(c)(1).
2

13

from Blythe California) that regularly perform work in
California and one or more other states, like Arizona.
Some jobs will require the trucks to cross the border
multiple times per day. For jobs performed outside of
California, the trucking company can continue to contract
with other trucking companies as it has for years, and
neither company needs to worry about liability for
misclassification. However, each time any of the drivers
crosses back into California, the rules of the game change,
such that now they must be deemed employees of the
company with whom they are contracting, at least for the
time they are inside California’s borders. The impacts of
this new legal reality would be far-reaching.
First, the trucking company would have to
implement intricate and expensive GPS technology to
precisely monitor the location of its trucks so that it could
know precisely when and where the truck entered or
exited California, so that it could keep track of the rules
that apply in each state. The administrative overhead for
this type of monitoring would be exorbitantly costly. The
trucking company would have to hire one or more staff to
not only monitor the geolocation of the trucks, but
prepare and store the necessary documentation to record
each truck’s location for each day of work for four years.
This new cost alone would be prohibitive to many
companies, and many would simply stop providing
service across state lines. For those companies that tried
to continue their services, they would necessarily have to
increase the prices charged to their customers and to
other trucking companies with whom they contract.
Companies outside of California would be
reluctant to send trucks into California for fear of being
subject to the ABC test. But they would also be reluctant
to contract with California trucking companies for crossborder work, because while any of the drivers were in
14

California for any part of the job, the out-of-state trucking
company could be liable for misclassification. In order to
protect themselves, they would seek either to minimize or
eliminate their routes into California (thereby creating an
immediate and obvious impact on the routes and the
services they provide) or they would insist upon strong
indemnification clauses in their contracts with California
trucking companies. They would also likely demand
access to the detailed geolocation data of the other
California company’s drivers in order to document and
protect themselves. Thus, once again, the California
company would be forced to dedicate time and resources
to providing that documentation (thus mandating a new
service they would have to provide) and would have to
raise their prices to pay for the risk associated with the
type of indemnification that out of state companies would
demand.
Quarries and other businesses near the border that
regularly ship material across state lines would have to
radically alter the way they deliver their goods to
customers. One likely scenario for an out of state
company would be to contract with a California trucking
company for shipments into California, but it would first
use out-of-state trucks and drivers to ship the material to
the border. Once there, they would unload the trailer, and
a California trucker would attach the trailer and carry it
into California.
This is incredibly expensive and
inefficient. Not only would such a load now require two
trucks and drivers instead of one, but it also requires each
truck to “dead-head3” for half of the trip. Moreover, it

Deadheading is when a truck drives a route with no
trailer or cargo attached. It is by definition a waste of
money because the company has to pay the driver, pay
3

15

creates a loss of time for the process of unhooking the
trailer and then attaching it to another truck. This would
result in an incredible disruption to what is otherwise a
relatively seamless interstate trucking marketplace. The
cost of goods going into or out of California would
dramatically increase to offset the new inefficiencies the
ABC test would mandate. Many trucking companies
would simply refuse to deal with cross-border cargo,
thereby reducing the services they perform and the
routes they service.
Because the very nature of trucking is its mobility,
California’s ABC test will create ripple effects well beyond
the borders of California. Trucks will no longer be able to
travel across state lines with the efficiency they currently
enjoy. California’s huge ports at Long Beach and Los
Angeles are services by trucking companies that carry
goods throughout the entire country. FAAAA was enacted
to prevent precisely this type of state law from interfering
with the efficient movement of goods throughout the
country.

for fuel, tires, etc. but is not earning any revenue from
the trip.
16

CONCLUSION
For the foregoing reasons, WSTA respectfully
urges that the petition for writ of certiorari be granted.
Respectfully submitted,

PATRICK J. WHALEN
Counsel of Record for Amicus Curiae
Ellison, Whalen and Blackburn, Attorneys at Law
1201 K Street, Ste. 1960.
Sacramento, CA 95814
(916) 448-2187
attorneys@ellisonlawoffices.com
June 01, 2021

17

